                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A06120063                                                            11          Page 1 of 1
                                                                                                                  11
                 An allegation of plagiarism was brought by the complainant1regarding a proposal2 that the
          complainant alleged had copied text from a publi~ation.~ Evidence indicated that the material the PP
          allegedly copied was material that the PI had co-authored.' The allegation therefore lacks sufficient
          substance.

                    Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
